an
COCKLE

Est. 1g23

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 21-388

JOHN K. MACIVER INSTITUTE FOR
PUBLIC POLICY, INC. AND WILLIAM OSMULSK1].

Petitioners,
Vv.

TONY EVERS, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WISCONSIN,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Addtess:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF OF GOLDWATER
INSTITUTE, REASON FOUNDATION, AND MAINE POLICY INSTITUTE AS AMICI
CURIAE SUPPORTING PETITIONERS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 5945 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d). as needed.

Subscribed and sworn to before me this 12th day of October, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL HOTARY-State of Nebraska
A RENEE J. GOSS 9.
ay Comm. Exp, September 5, 2023

Notary Public

Oude h, Chl

Affiant

41534
